HHS/OIG-Audit--"Audit of the Utilization of the Public Health Service 340B Drug Pricing Program, (A-01-98-01500)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Utilization of the Public Health Service 340B Drug Pricing Program," (A-01-98-01500)
July 16, 1998
Complete
Text of Report is available in PDF format (138 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report points out that the Health Resources and Services Administration's (HRSA) action to require eligible entities
to participate in the 340B Program could result in savings to be used for additional services to patients. We commend the
HRSA for its action and recommend that the HRSA: (1) continue its efforts to require eligible entities to participate in
the 340B Program, and (2) periodically inform us of the status of these efforts.